December 3, 2008

THERESA D. BACHMAN
SENIOR PLANT MANAGER, LOUISVILLE PROCESSING AND DISTRIBUTION
  CENTER

SUBJECT: Audit Report – Powered Industrial Vehicle Management System at the
         Louisville, Kentucky Processing and Distribution Center
         (Report Number NO-AR-09-001)

This report presents the results of our review of the Powered Industrial Vehicle
Management System (PIVMS)1 at the Louisville, Kentucky Processing and Distribution
Center (P&DC) located in the Eastern Area (Project Number 08XG040NO000). Our
objectives were to determine if the PIVMS was functioning as intended and producing
efficiency improvements. See Appendix A for additional information about this audit.

Conclusion

Although the Louisville P&DC successfully used the majority of operational features of
the PIVMS and began to show overtime workhour reductions in fiscal year (FY) 2008,
opportunities for improvement remain. The Louisville P&DC did not always use the
PIVMS to manage workhours, conduct maintenance activities, and reduce vehicle
inventory.

By completing these activities, we estimated management could reduce workhours by
5,000 by the end of FY 2009, with an associated economic impact of $1.9 million in
savings occurring over 10 years. In addition, the Louisville P&DC could reduce its
vehicle inventory by two industrial vehicles2 and stop leasing additional PIV equipment.
This reduction in rental expense would result in an associated economic impact of
$11,535 in savings over 2 years.

Use of the PIVMS at the Louisville Processing and Distribution Center

Although management at the Louisville P&DC successfully used the majority of
operational features of the PIVMS, there were opportunities for additional
improvements.

The Louisville P&DC did not always use the PIVMS to:

    •    Manage equipment operator workhours or overtime.

1
  The PIVMS consists of intelligent wireless devices installed on powered industrial vehicles (PIV) and client-server
software for access control, utilization analysis, real-time location tracking, and many other functions.
2
  We will calculate the costs associated with the vehicle reductions in our capping report.
Powered Industrial Vehicle Management System                                  NO-AR-09-001
 at the Louisville, Kentucky Processing and Distribution Center



    •   Schedule and complete preventive maintenance.

    •   Monitor vehicle battery usage.

    •   Identify opportunities to reduce vehicle inventory.

In addition, although management used the PIVMS to identify the employee logged into
a vehicle when an accident occurred, they occasionally bypassed some safety and
security features. See Appendix B for our detailed analysis of these issues.

Workhour and Overtime Trends

We concluded that efficiency improved slightly during the 12-month period after
management implemented PIVMS in August 2006. However, although workhours used
in tow and forklift operations from FYs 2005 to 2007 decreased by almost 3 percent,
overtime used in these operations increased by almost 17 percent. See Appendix C for
our detailed analysis of this issue.

We also compared the Louisville P&DC to 20 P&DCs that had the PIVMS installed for at
least 1 year. These sites reduced tow and forklift workhours by more than 10 percent
from FYs 2005 to 2007, and decreased overtime during this same period by over
13 percent. See Appendix D for our detailed analysis of this topic.

Causes

We concluded that efficiency improvements from the PIVMS did not occur at the
Louisville P&DC due to several factors. We found:

    •   Management did not provide PIVMS training to all employees who needed to use
        the system due to high supervisory and management turnover.

    •   Management was not aware of any established national goals or requirements
        for the PIVMS.

Criteria

The President’s Commission on the United States Postal Service recommended on July
31, 2003, that the mission of the U.S. Postal Service be “ . . . to provide high-quality,
essential postal services to all persons and communities by the most cost-effective and
efficient means possible at affordable and, where appropriate, uniform rates.”

Title 39 U.S.C., Part 1, Chapter 4, § 403, states “The Postal Service shall plan,
develop, promote, and provide adequate and efficient postal services at fair and
reasonable rates and fees.”



                                                     2
Powered Industrial Vehicle Management System                                      NO-AR-09-001
 at the Louisville, Kentucky Processing and Distribution Center



The Postal Accountability Enhancement Act, H.R. 6401, dated December 8, 2006, Title
II, indicates “. . . the need for the Postal Service to increase its efficiency and reduce its
costs, including infrastructure costs, to help maintain high quality, affordable postal
services. . . .”

Effect

By using the PIVMS as intended, the Postal Service could increase operational
efficiency at the Louisville P&DC. We estimated management could reduce 5,000 mail
processing workhours by the end of FY 2009, with an associated economic impact of
$1.9 million in savings occurring over 10 years. See Appendix E for more details. In
addition, the Louisville P&DC could reduce the number of industrial vehicles in its fleet
by two and not incur future PIV rental expense resulting in an associated economic
impact of $11,535 in savings over 2 years.

Management Actions

Management was aware of and supported the need to achieve an acceptable return on
investment from the PIVMS. Management has measures in place that should allow for
continued improvement. We noted that during FY 2008, overtime used in tow and
forklift operations began to decrease. At our exit conference on September 24, 2008,
Louisville P&DC management committed to improve efficiency and reduce equipment
inventory by two vehicles. We noted management had not established specific PIVMS
goals and targets and we will address these issues in our capping report. We will also
examine costs associated with vehicle reductions in our capping report.

Recommendations

To ensure the PIVMS at the Louisville P&DC functions as intended and produces
efficiency improvements, we recommend the Senior Plant Manager, Louisville P&DC:

    1. Use the Powered Industrial Vehicle Management System to the fullest extent
       possible to manage operations and continue to improve mail processing
       efficiency by reducing 5,000 workhours in tow and forklift operations by the end
       of fiscal year 2009, with an associated economic impact of $1.9 million in savings
       occurring over 10 years.

    2. Discontinue leasing Powered Industrial Vehicles by Quarter 2, fiscal year 2009.
       This could produce a savings of $11,535 over 2 years.

    3. Reduce industrial vehicle inventory by two by the end of fiscal year 2009.

    4. Provide Powered Industrial Vehicle Management System training to all
       employees who need to use the system by Quarter 2, fiscal year 2009.




                                                     3
Powered Industrial Vehicle Management System                                NO-AR-09-001
 at the Louisville, Kentucky Processing and Distribution Center



Management’s Comments

Management agreed with the findings, recommendations, and monetary impact. They
have reduced some workhours and ceased leasing PIVs. They will continue to reduce
workhours to achieve the recommendation, retire two PIVs, and conduct training. See
Appendix F for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should revolve the issues identified in the report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that they can be
closed.

We will report $1,981,643 in funds put to better use in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:     Patrick R. Donahoe
        William P. Galligan
        Anthony M. Pajunas
        David E. Williams, Jr.
        Clovis L. Christenbury II
        Katherine S. Banks




                                                     4
Powered Industrial Vehicle System                                           NO-AR-09-001
 at the Louisville Processing and Distribution Center



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Louisville P&DC is in the Kentuckiana District in the Eastern Area. The map below
shows the Eastern Area Districts by three-digit ZIP Code.




The Louisville P&DC processed almost 1.3 billion first handling pieces (FHP) of mail
and used over 1.4 million workhours in FY 2007. The Postal Service owns the
Louisville P&DC, which has occupied this facility since March of 1977. The building
contains 393,684 square feet of interior space on a site with dimensions of 1,845,768
square feet.

The Louisville P&DC implemented the PIVMS in August 2006 at a projected cost of
$292,302. The Postal Service justified the purchase based on:

    •   Elimination of unauthorized use of PIVs;
    •   Reduction of injuries caused by unsafe operation of PIVs;
    •   Reduction of damage to mail and equipment caused by unsafe operation of PIVs;
    •   Reduction of workhours used to transport mail and equipment throughout the
        plant;
    •   Reduction of number of pieces of equipment needed to perform this work; and
    •   Reduction of workhours needed to maintain the fleet of PIVs.




                                                        5
Powered Industrial Vehicle System                                           NO-AR-09-001
 at the Louisville Processing and Distribution Center



This implementation was part of a national contract the Postal Service awarded to I.D.
Systems, Inc. of Hackensack, New Jersey in January 2005 to produce and deploy the
PIVMS. The Postal Service started the program essentially as a pilot when it signed a
$3.6 million contract with I.D. Systems to implement a wireless asset management
system at ten bulk mailing and distribution facilities across the country. As of April
2008, the Postal Service placed orders for PIVMS deployment in 80 facilities. The total
amount funded for the PIVMS as of May 2008 was over $31 million.

The Postal Service intended the PIVMS to provide automated measurement, control,
and compliance reporting of PIV operations within a plant, resulting in optimal PIV
safety conditions, operations, supervision, and associated savings. Some of the major
system design features included:

    •   Two-way text messaging.
    •   Compliance with Occupational Safety and Health Administration (OSHA) safety
        standards by only allowing currently certified operators to logon and operate
        specified equipment.
    •   Increased safety and accountability by shutting down vehicles after recording
        significant impacts.
    •   Ability to measure the amount of time an operator is logged into a vehicle and
        the amount of time the vehicle is in motion.
    •   Ability to locate and track vehicles within a plant.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine if the PIVMS was functioning as intended and
produced efficiency improvements. To accomplish these objectives, we observed mail
processing operations and analyzed volume and workhour trends at the Louisville
P&DC. The Louisville P&DC implemented the PIVMS before the end of FY 2006, so we
benchmarked the Louisville P&DC with sites that implemented the PIVMS after
FY 2006. We also evaluated the utilization and capacity, staffing levels, and inventory
of powered equipment at the Louisville P&DC.

To conduct this audit, we relied on computer-processed data maintained by Postal
Service Operational Systems, which included the Web Enterprise Information System
(WebEIS), Management Operating Data System (MODS), Web-based Complement
Information System (webCOINS), and the Enterprise Data Warehouse (EDW) systems.

We did not test the validity of controls over these systems. However, we checked the
accuracy of the data by confirming our analysis and results with Postal Service
managers and different data sources. In addition, we relied on OIG audits of Postal




                                                        6
Powered Industrial Vehicle System                                                           NO-AR-09-001
 at the Louisville Processing and Distribution Center


Service systems. For example, an OIG review of the MODS concluded the data in this
system was valid and reliable for the uses for which it was intended.3

We conducted this audit from August through November 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls that we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on September 24, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We issued a report on PIVMS use at the Raleigh P&DC titled Powered Industrial
Vehicle Management System at the Raleigh Processing and Distribution Center (Report
Number NO-AR-08-007, dated September 15, 2008), which reported $3,345,456 in
funds put to better use. We also issued a report on PIVMS use at the Providence
P&DC titled Powered Industrial Vehicle Management System at the Providence
Processing and Distribution Center (Report Number NO-AR-08-007, dated September
23, 2008), which reported $1,576,086 in funds put to better use. We concluded that
neither P&DC used the PIVMS as intended and, consequently, they did not fully realize
efficiency improvements.




3
    Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).




                                                        7
Powered Industrial Vehicle System                                             NO-AR-09-001
 at the Louisville Processing and Distribution Center



                                  APPENDIX B: DETAILED ANALYSIS

USE OF THE POWERED INDUSTRIAL VEHICLE MANAGEMENT SYSTEM

We found the Louisville P&DC did not always use the PIVMS to:

      •    Manage equipment operator workhours or overtime.
      •    Schedule and complete preventive maintenance.
      •    Monitor vehicle battery usage.
      •    Identify opportunities to reduce vehicle inventory.

In addition, although management used the PIVMS to identify the employee logged into
a vehicle when an accident occurred, it occasionally bypassed some safety and security
features.

Management of Equipment Operator Workhours

Although the Louisville P&DC successfully used the majority of operational features of
the PIVMS, there were opportunities for additional improvements. For example, we
reviewed the number of logon accesses to the PIVMS and found that 24 of the 35 mail
processing managers and supervisors (68.5 percent) logged into the PIVMS in the
month of July 2008. We interviewed supervisors and found the majority of them
accessed the PIVMS only for tasks such as starting vehicles for employees or locating
vehicles parked in non-designated locations.

We also found the majority of Louisville P&DC supervisors did not use the PIVMS
reports. The PIVMS reports allow management to monitor and measure vehicle
utilization attributes such as simultaneous vehicle usage, speed, distance traveled, idle
time, motion time, and motion time while carrying or pulling a load in order to assess
productivity.

Maintaining Vehicle Equipment and Monitoring Battery Usage

The Louisville P&DC did not always use the PIVMS reports to schedule preventive
maintenance or ensure it was performed. Instead, management used the Electronic
Maintenance Activity Reporting and Scheduling System (eMARS) to schedule
maintenance.4 The PIVMS maintenance tool provides the ability to forecast, schedule,
and process preventative maintenance events. By using this tool, management could
more effectively manage preventive maintenance of vehicles.

In addition, we found management did not use the PIVMS battery management system
to monitor battery usage. The purpose of the PIVMS Battery/Charger Administration

4
    We will address the use of eMARS in our national capping report.




                                                           8
Powered Industrial Vehicle System                                                                   NO-AR-09-001
 at the Louisville Processing and Distribution Center


module is to extend vehicle battery life and reduce battery inventory.5 We found
management installed electronic battery fobs to track battery usage on most of the PIV
batteries at the Louisville P&DC, but was not using the PIVMS battery management
system to track battery usage or abuse. In addition, management did not number or
track batteries at the Louisville P&DC in any inventory system.

Vehicle Inventory Management

Since PIVMS implementation, management reduced PIV equipment by four pieces (see
Table 1 below); however, management did not use the PIVMS to identify opportunities
to make these reductions.


      TABLE 1: POWERED INDUSTRIAL VEHICLES AT THE LOUISVILLE P&DC


                               Powered Industrial Vehicle Inventory
                                        August         August
                                         2006           2008        Increase/Decrease
                      Forklifts            15                11                 -4
                        Tows               20                20                  0

                       TOTAL               35                31                 -4

We concluded the Louisville P&DC could reduce its inventory by another two pieces of
PIV equipment. We found the maximum number of vehicles used simultaneously from
November 2006 to July 2008 was 29, indicating a possible surplus of two vehicles. In
addition, the maximum number of powered equipment operators scheduled to work at
any one time was 22, also indicating there were more than enough vehicles for
equipment operators to use.

During our observations on all tours, we often found vehicles idle. See Illustrations 1
and 2.




5
 Industrial batteries provide a maximum return on investment when discharged to appropriate levels during operation
and allowed to recharge and cool down for enough time during their charge cycles. I.D. Systems’ Fleet Management
System notifies the operator when the battery has discharged sufficiently and should be replaced.




                                                         9
Powered Industrial Vehicle System                                                 NO-AR-09-001
 at the Louisville Processing and Distribution Center




                Illustration 1: Forklift found idle on August 14, 2008, at 5:07 p.m.




                         Illustration 2: Tow motor found idle on August 14, 2008, at
                         5:11 p.m.



                                                        10
Powered Industrial Vehicle System                                             NO-AR-09-001
 at the Louisville Processing and Distribution Center



We also found unused equipment awaiting parts and repair in the maintenance unit.
Finally, we found that even with this excess inventory, Louisville P&DC management
rented additional PIV equipment in the months of December 2006 and 2007 at an
average cost of $5,768.

During our audit, management reviewed equipment needs and agreed to reduce vehicle
inventory by two vehicles and to cease rental of additional PIV equipment. We will
examine the costs associated with vehicle reductions in our capping report.

Safety and Security Features

Management at the Louisville P&DC occasionally bypassed some of the PIVMS security
features designed to ensure compliance with OSHA. For example:

    •   One of the PIVMS safety design features only allows certified operators to logon
        and operate specified equipment. However, Louisville P&DC supervisors
        sometimes used master badges with override capability to start vehicles for
        operators.

    •   Another PIVMS safety design feature requires the operator to complete an
        electronic OSHA checklist (see Illustration 3) within a prescribed time after
        logging on to the vehicle. However, we observed that some equipment operators
        did not complete the OSHA safety checklist at the start of their tour.




        Illustration 3: Employee used proper identification and the electronic OSHA
        checklist to start a vehicle on August 14, 2008, at 5:29 p.m.




                                                        11
Powered Industrial Vehicle System                                            NO-AR-09-001
 at the Louisville Processing and Distribution Center



Management used the PIVMS on several occasions to identify the employee logged into
a vehicle when an accident occurred. During our review at the Louisville P&DC, we did
not observe unsafe driving practices or accidents. However, we found prior damage to
the building and confirmed vehicle impacts caused it. See Illustration 4.




                 Illustration 4: South side of Louisville P&DC with damage
                 to brick wall, August 14, 2008, at 3:36 p.m.

We also found that management did not always run or review PIVMS OSHA
Compliance and OSHA Compliance Exception Reports. These reports allow
management to track and monitor OSHA compliance, correct non-compliance, and
report OSHA issues to higher management.




                                                        12
Powered Industrial Vehicle System                                                                        NO-AR-09-001
 at the Louisville Processing and Distribution Center



                        APPENDIX C: VOLUME AND WORKHOUR TRENDS

We reviewed mail volume, workhours, productivity, and complement trends for the
Louisville P&DC for FYs 2005 through 2007. During this period, FHP volume at the
Louisville P&DC decreased by 3.89 percent and mail processing (Function 1)6
workhours decreased by 7.5 percent. Consequently, overall mail processing
productivity increased by 3.91 percent.

From FYs 2005 to 2007, workhours used in tow and forklift operations at the Louisville
P&DC decreased by 2.61 percent and overtime used in these operations increased by
16.59 percent. We noted that during FY 2008, overtime used in tow and forklift
operations began to decrease. For example, the Louisville P&DC used almost
23 percent less overtime in these operations in July of FY 2008 than in July of FY 2007.

In FY 2007, the Louisville P&DC used 6.85 percent of mail processing workhours in tow
and forklift operations. There were 50 equipment operators at the P&DC in FY 2007, an
increase of one operator since FY 2005.

We also reviewed tow and forklift workhours 12 months prior to and after
implementation. Management implemented the PIVMS at the Louisville P&DC on
August 8, 2006, and achieved a 4.72 percent decrease in Function 1 workhours and a
7.07 percent decrease in tow and forklift workhours after this implementation. See
Table 2.

                             TABLE 2: LOUISVILLE P&DC TRENDS
                          BEFORE AND AFTER PIVMS IMPLEMENTATION

                  Louisville P&DC PIVMS Implementation Date - August 3, 2006
      12 Months Before PIVMS                12 Months After PIVMS               Percentage
          Implementation                       Implementation                    Changes
Function Tow and       Percentage    Function Tow and        Percentage   Function Tow and
 1 Hours    Forklift     Tow and      1 Hours    Forklift      Tow and     1 Hours     Forklift
            Hours     Forklift Hours             Hours     Forklift Hours              Hours
                      to Function 1                         to Function 1
                           Hours                                Hours
1,502,686 104,369           6.95     1,431,781   96,991          6.77        -4.72      -7.07




6
    Function 1 is a workhour category the Postal Service uses to specifically identify mail processing workhours.




                                                            13
Powered Industrial Vehicle System                                              NO-AR-09-001
 at the Louisville Processing and Distribution Center



                  APPENDIX D: COMPARISONS TO OTHER FACILITIES

In order to better assess the effects of PIVMS, we reviewed volume, workhour,
productivity, and complement trends for P&DCs that had the PIVMS installed before the
end of FY 2006, so there was at least one fiscal year of data. For the 20 sites meeting
these criteria, we reviewed volume, workhour, and productivity trends from FYs 2005
through 2007. During this period, volume at these sites increased slightly (.95 percent)
and mail processing (Function 1) workhours decreased by 6.69 percent. Consequently,
productivity increased by 11.10 percent.

From FY 2005 to 2007, workhours used in tow and forklift operations at these sites
decreased by 10.47 percent and overtime used in these operations decreased by
13.38 percent. In FY 2007, the average site used 5.97 percent of mail processing
workhours in tow and forklift operations. The number of equipment operators increased
by 1.92 percent between FYs 2005 and 2007.

Comparing Louisville P&DC to these sites:

    •   From FY 2005 to FY 2007, the average site reduced tow and forklift workhours
        by 10.47 percent. The Louisville P&DC ranked 8th out of 20 sites in this
        percentage change comparison.

    •   The average site reduced tow and forklift overtime by 13.38 percent. The
        Louisville P&DC ranked 17th out of 20 sites in this percentage change
        comparison.

The average of these 20 sites reduced tow and forklift workhours by 7.03 percent during
the 12 months after implementation, compared to the Louisville P&DC’s decrease of
7.07 percent, which was very comparable to the other P&DCs that implemented the
PIVMS during FY 2006. See Table 3.

TABLE 3: LOUISVILLE P&DC WORKHOURS COMPARED TO OTHER P&DCS WITH
              PIVMS, BEFORE AND AFTER IMPLEMENTATION

                            12 Months               12 Months    Percentage Change Tow
                           Before PIVMS            After PIVMS   And Forklift Workhours
 Louisville P&DC              104,369                 96,991              -7.07
  Average P&DC                113,403                105,430              -7.03
   With PIVMS




                                                        14
Powered Industrial Vehicle System                                                  NO-AR-08-001
 at the Louisville Processing and Distribution Center



            APPENDIX E: CALCULATION OF FUNDS PUT TO BETTER USE

By using the PIVMS as intended, we estimated that management could reduce 5,000
workhours by the end of FY 2009.

    •   The Louisville P&DC had FHP productivity in FY 2007 of 899 mailpieces per
        workhour, which was better than the average FHP productivity of the 20 sites of
        827 mailpieces per workhour.

    •   We calculated earned workhours using an average FHP productivity of 827
        mailpieces per workhour for mail processing operations (Function 1).

    •   We determined the percentage of workhours used in tow and forklift operations
        to total function for the sites that had better than average FHP productivity to be
        5.97 percent.

    •   The Louisville P&DC used 6.85 percent of earned Function 1 workhours in tow
        and forklift operations in FY 2007.

    •   We multiplied 5.97 by the calculated earned workhours for the Louisville P&DC of
        1,550,871 to determine that earned tow and forklift workhours were 92,658.
        Compared to the actual workhours used in these operations of 97,615 in FY
        2007, this was a difference of 4,957 workhours.

Louisville P&DC management agreed to reduce 5,000 workhours. This workhour
savings has an associated economic impact of $1.9 million (net present value) in
savings over 10 years.

                  FUNDS PUT TO BETTER USE (WORKHOUR SAVINGS)

                 Employee Category                      Workhour      Time Frame
                     Impacted                           Reduction    10 Fiscal Years
                                                                       Discounted
                                                                        Savings
                                                                      (Net Present
                                                                         Value)
             Function 1 Mail Processing                      5,000     $1,970,108
              Mail Handler Workhours




                                                        15
Powered Industrial Vehicle System                                                    NO-AR-08-001
 at the Louisville Processing and Distribution Center


NOTES

    •   We based the 5,000 workhour reduction on management’s plan to reduce
        workhours over a 1-year period, based on FY 2007 usage.

    •   We calculated the cost avoidance using the savings in workhours multiplied by
        the escalated labor rate over a 10-year period.

    •   We calculated the net present value using the June 6, 2008, discount rate of 4
        percent over a 10-year period.

    •   We based labor rates on FY 2009 Actual Wage Rates and FY 2008 and 2009
        projections on the Postal Service’s published rates for a level 05 (PS-05)
        mailhandler.

    •   The yearly escalation factor is 2.2 percent, based on the Postal Service’s
        Decision Analysis Factors, effective June 6, 2008.

Management also agreed to cease renting PIV equipment. At an average annual
expense of $5,768, this represents a savings of $11,535 over a 2-year period.

            FUNDS PUT TO BETTER USE (RENTAL EXPENSE REDUCTION)

              Vehicle Rental Expense                     Average     Time Frame
                                                          Rental    2 Fiscal Years
                                                         Expense
                                                        Reduction
                 PIV Rental Expense                       $5,768       $11,535




                                                        16
Powered Industrial Vehicle System                            NO-AR-08-001
 at the Louisville Processing and Distribution Center


                         APPENDIX F: MANAGEMENT’S COMMENTS




                                                        17
Powered Industrial Vehicle System                            NO-AR-08-001
 at the Louisville Processing and Distribution Center




                                                        18
